C'OCKLE

2311 Douglas Street A . 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a fs contact@cocklelegalbriefs.com
923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-12

FEDERAL ELECTION COMMISSION,
Appellant,
".
TED CRUZ FOR SENATE and
RAFAEL EDWARD “TED” CRUZ,
Appellees.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF INSTITUTE FOR FREE SPEECH IN SUPPORT OF APPELLEES in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

3756 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of August, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & a Z 1,
RENEE J, GOSS 9. ¢ ded caer Cs

Affiant

 

 

marelsheme wy Comm. Exp. September §, 2028

Notary Public 41247
